No. 20A98
IN THE SUPREME COURT OF THE UNITED STATES
MIKE KELLY, ET AL.,
Applicants,
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.
RULE 33.1(h) CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 37.5 and 33.1(h), I certify that the Motion
for Leave to File contains 780 words, excluding those parts of the document exempted
by Supreme Court Rule 33.1(d).
I certify that the Brief of Carter Phillips, Stuart M. Gerson, John Danforth,
Cristine Todd Whitman, Lowell Weicker, et al., as Amici Curiae in Support of
Respondents and in Opposition to the Emergency Application for Injunctive Relief
contains 3,095 words, excluding those parts of the document exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Date: December 7, 2020

__/s/Nancy A. Temple_____
Nancy A. Temple

